No.__________
IN THE SUPREME COURT OF THE UNITED STATES
MAURICIO LEMUS, PETITIONER
V.

UNITED STATES OF AMERICA
_____________
ON PETITION FOR WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE FIFTH CIRCUIT

_____________
CERTIFICATE OF SERVICE

_____________
The undersigned, an attorney and a member of the Bar of this Court, certifies that
pursuant to Supreme Court Rule 29.3 he served Mauricio Lemus’s Motion for Leave to
Proceed In Forma Pauperis and Petition for Writ of Certiorari on Counsel for the United
States:
The Honorable Jeffrey Wall
Acting Solicitor General of the United States
U.S. Department of Justice
950 Pennsylvania Avenue NW, Room 5614
Washington, D.C. 20530
(202) 514-2201
Service was made by enclosing a copy of the Motion and a copy of the Petition in an
envelope addressed to the Solicitor General and then depositing the envelope in the United
States mail at San Antonio, Texas, on July 28, 2020. A copy of the petition was also mailed
to Assistant U.S. Attorney Joseph H. Gay Jr. at his office 601 N.W. Loop 410, Suite 600,

San Antonio, Texas 78216. Counsel further certifies that all parties required to be served
have been served.

/s/ Philip J. Lynch
Counsel of Record for Petitioner

